INTEREST RATE AND INTEREST CHARGES
Annual Percentage Rate(APR) for
Purchases
APR for Cash Advances

4.75%
Variable-Rate determined by adding 1.50% to the Prime Rate.
This APR will vary with the market based on the Prime Rate.

4.75%

Variable-Rate determined by adding 1.50% to the Prime Rate.
This APR will vary with the market based on the Prime Rate.
How to avoid paying interest on
Your due date is at least 25 days after close of each billing cycle. We will not charge you interest on
purchases
purchases, cash advances and balance transfers if you pay entire balance by the due date.
Minimum Interest Charge
N/A
For Credit Card Tips from the Consumer To learn more about factors to consider when applying for or using a credit card, visit the website of the
Financial Protection Bureau
Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES
Annual Fees
N/A
Transaction Fees
Up to $10.00
• Balance Transfer
Up to $10.00
• Cash Advance
N/A
• Foreign Fees
Phone payment penalty $6.00
• Other
Penalty Fees
Up to $30.00
• Late Payment
N/A
• Over-the-Credit-Line
Up to $30.00
• Returned Payment
How We Will Calculate Your Balance: We use a method called “average daily balance”. See your account agreement for further information regarding
how we calculate your balance.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
Loss of Introductory APR: N/A
How We Will Calculate Your Variable APRs: We calculate variable APRs by adding a margin to the highest U.S. Prime Rate published in the Money
Rates section of The Wall Street Journal two business days (not weekends or federal holidays) before the closing date shown on your billing statement.
The APR may increase or decrease each month if the Prime Rate changes. Any new rate will be applied as of the first day of your billing cycle during
which the Prime Rate has changed. If the APR increases, you will pay a higher interest charge and may pay a higher minimum payment. The Prime Rate
is simply a reference index and is not the lowest interest rate available. If The Wall Street Journal stops publishing the Prime Rate, we will select a similar
reference rate.
Prime Rate: Variable APRs are based on the 3.25% Prime Rate as of Apr 30,2009

